No. 19-1023

 

IN THE
Supreme Court of the Gnited States

DONNIE MorGAN, WARDEN,
Petitioner,
Vv.

VINCENT D. WHITE, JR.,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Sixth Circuit

BRIEF OF INDIANA, ARIZONA, ARKANSAS,
KANSAS, KENTUCKY, MISSOURI,
NEBRASKA, SOUTH CAROLINA, TEXAS,
AND UTAH AS AMICI CURIAE
IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

Pursuant to Supreme Court Rule 33.1(h), I, Thomas M. Fisher, certify that the
document contains 3,387 words (including footnotes), excluding the parts of the
document exempted by Rule 33.1(d), according to the word-count function of Microsoft
Word, the word-processing program used to prepare this brief.

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 19, 2020 /s/Thomas M. Fisher
Thomas M. Fisher
Solicitor General
Office of the Attorney General
IGC South, Fifth Floor
302 W. Washington Street
Indianapolis, IN 46204
(317) 232-6255
Tom.Fisher@atg.in.gov
